<html>
<title> - [H.A.S.C. No. 114-98]FULL SPECTRUM SECURITY CHALLENGES IN EUROPE AND THEIR EFFECTS ON DETERRENCE AND DEFENSE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


     
                         [H.A.S.C. No. 114-98]
 
                   FULL SPECTRUM SECURITY CHALLENGES

                     IN EUROPE AND THEIR EFFECTS ON

                         DETERRENCE AND DEFENSE

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 25, 2016


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                ___________
                                
                                
                    U.S. GOVERNMENT PUBLISHING OFFICE
99-629                     WASHINGTON : 2017                    
____________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5f382f301f3c2a2c2b373a332f713c303271">[email&#160;protected]</a>  
                                    
                      COMMITTEE ON ARMED SERVICES
                   
                  
                   One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                Katie Sendak, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Committee 
  on Armed Services..............................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Breedlove, Gen Philip M., USAF, Commander, United States European 
  Command........................................................     3

                                APPENDIX

Prepared Statements:

    Breedlove, Gen Philip M......................................    37
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Castro...................................................    65
    Mr. Conaway..................................................    65
    Mr. Gibson...................................................    66
    Mr. Hunter...................................................    65
    Mr. Scott....................................................    66
    Mr. Shuster..................................................    65
    Mr. Takai....................................................    66
    
    
 
   FULL SPECTRUM SECURITY CHALLENGES IN EUROPE AND THEIR EFFECTS ON 
                         DETERRENCE AND DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, February 25, 2016.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order. Seventy years 
ago next week, Winston Churchill gave his famous Iron Curtain 
speech in Fulton, Missouri. Among his insights was this, quote: 
``I do not believe that Soviet Russia desires war. What they 
desire is the fruits of war and the indefinite expansion of 
their power and doctrines.''
    He went on, ``From what I have seen of our Russian friends 
and allies during the war I am convinced there is nothing they 
admire so much as strength and there is nothing for which they 
have less respect than weakness, especially military 
weakness,'' end quote.
    I think what was true then is true now and we are seeing it 
play out before our eyes. The famous reset by the Obama 
administration with regard to Russia has not gone so well. Just 
over the past year or so Russia has consolidated its gains in 
Ukraine, has intervened in Syria, establishing a stronghold in 
the Middle East for the first time since the 1970s, and has 
continued to take unprecedented, provocative actions against 
NATO [North Atlantic Treaty Organization] ships and planes.
    Russia presents a full spectrum of threats, from a modern 
nuclear arsenal which Putin has threatened to use against 
conventional forces, to hybrid tactics based on deception and 
confusion and little green men. So far, NATO and the U.S. have 
grappled to find effective countermeasures.
    The President's budget proposal significantly--proposes to 
significantly increase our exercises in Eastern Europe as part 
of the European Reassurance Initiative. But rather than ask for 
more money to pay for it, his budget proposal would take it out 
of readiness, modernization--both of which have been under 
siege for years. That can hardly leave the Russians quaking in 
their boots.
    Of course, Russia is not the only issue on the plate of our 
distinguished witness today. The growing threat of terrorist 
attack from ISIS [Islamic State in Iraq and Syria] coming both 
from Syria, Iraq, and from Libya, as well as the migration of 
refugees more generally, are a significant issue for this 
theater.
    In addition, whether a cyberattack would invoke Article 5 
obligations under the NATO treaty, as we talked about in our 
hearing a couple weeks ago, is one of the many questions facing 
us all.
    Finally, the security of Israel, which is also within this 
geographic command, is always a matter of keen interest and 
concern before this committee.
    We are privileged to have before us a witness to help 
clarify all of these issues. Before introducing him I will turn 
to the gentlelady from California for any comments she would 
like to make.

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Mrs. Davis. Thank you. Thank you, Mr. Chairman. I certainly 
ask unanimous consent that the ranking member's statement be 
entered into the record.
    General----
    The Chairman. Without objection.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 35.]
    Mrs. Davis. General Breedlove, thank you very much for 
being here today with us, and as you conclude your time in 
command and you look to your retirement as well--and we hope 
that will be a good and smooth transition--I want to thank you 
for your work to enhance cooperation with our European partners 
and for moving us forward to address the challenges to Europe's 
security.
    The chairman has made some excellent points, of course, 
about the complex and ever-changing situation that we face 
every day. I am very interested in your thoughts on Russian 
motivations and how U.S. and our allies can most effectively 
respond without pushing Russia--the Russian government to be 
even more adversarial.
    Russia's destabilizing efforts continue, and it seems clear 
that Russian aggression and malign influence in Europe are 
likely the issues that the United States and our partners in 
Europe will have to grapple with for years to come. We must 
continue to lead in deterring Russian aggression and, if 
necessary, in concert with our partners--but our first priority 
has to be to prevent conflict.
    I look forward to your testimony today and again thank you 
very much.
    I yield back.
    The Chairman. Our witness today is General Philip 
Breedlove, Supreme Allied Commander of our NATO forces and 
commander of the United States European Command.
    General Breedlove, my understanding is that our current 
schedule is for you to rotate out of your current position and 
move on to other challenges after just about 40 years in the 
United States military. And so as we begin I want to thank you 
very much for your service in this position.
    And throughout your career your interaction with this 
committee has been extremely valuable. You have been in a key 
position at a very critical time when literally the world has 
changed. And I know I speak on behalf of all our colleagues in 
thanking you for the way you have done this job especially, but 
also your entire military career.
    Without objection, your entire witness statement will be 
made part of the record and we will turn the floor over to you.

 STATEMENT OF GEN PHILIP M. BREEDLOVE, USAF, COMMANDER, UNITED 
                    STATES EUROPEAN COMMAND

    General Breedlove. Thank you, Mr. Chairman and 
Congresswoman Davis, distinguished members of the committee. 
Thank you for the opportunity to testify before you today.
    I have had no greater honor in my 39-plus-year career than 
to lead the soldiers, sailors, airmen, Marines, Coast Guard, 
and civilians of the U.S. European Command [EUCOM]. These 
remarkable men and women serve not only in the EUCOM theater, 
but also in harm's way across the globe.
    I thank this committee for your continued support to them 
and to their families.
    I am also honored to serve alongside the men and women in 
uniform of the nations of Europe. They are willing and capable. 
They play an essential role in helping protect our own vital 
interests.
    The last time I addressed this committee the security 
situation in Europe was complex. Since then, the situation has 
only grown more serious and more complicated.
    Today Europe faces security challenges from two directions. 
First, to the east Europe faces a resurgent, aggressive Russia. 
Russia has chosen to be an adversary and poses a long-term 
existential threat to the United States and to our European 
allies and partners.
    Russia is eager to exert unquestioned influence over its 
neighboring states to create a buffer zone, and Russia is 
extending its course of influence yet further afield to try to 
reestablish a leading role on the world stage.
    Russia does not want to challenge the agreed rules of the 
international order; it wants to rewrite them. Russia sees the 
United States and NATO as threats to its objectives and as 
constraints on its aspirations. So Russia seeks to fracture our 
unity and challenge our resolve.
    Russia, Mr. Chairman, as you said, recognizes strength and 
sees weakness as opportunity. To that end, Russia applies all 
instruments of national power, including its military, to 
coerce, corrupt, and undermine targeted European countries.
    Some call this unconventional warfare; some call it hybrid; 
I like to talk about it as sending in little gray men who use 
their diplomatic, economic, and informational tools, in 
addition to military pressure, to shape and influence nations 
without triggering a NATO Article 5 military response.
    To the south, from the Levant through North Africa, Europe 
faces a complicated mix of mass migration spurred by state 
instability and state collapse, and masking the movement of 
criminals, terrorists, and foreign fighters.
    Within this mix ISIL [Islamic State of Iraq and the 
Levant], or Daesh, as I call them, is spreading like a cancer, 
taking advantage of paths of least resistance, threatening 
European nations and our own with terrorist attacks. Its 
brutality is driving millions to flee from Syria and Iraq, 
creating an almost unprecedented humanitarian challenge.
    Russia's entry into the fight in Syria has wildly 
exacerbated the problem, changing the dynamic in the air and on 
the ground. Despite public pronouncements to the contrary, 
Russia has done little to counter Daesh but a great deal to 
bolster the Assad regime and its allies. And together, Russia 
and the Assad regime are deliberately weaponizing migration 
from Syria in an attempt to overwhelm European structures and 
break European resolve.
    All genuinely constructive efforts to end the war are 
welcome, but that is not yet what we are seeing.
    EUCOM is standing firm to meet this array of challenges. To 
counter Russia, EUCOM, working with allies and partners, is 
deterring Russia now and preparing to fight and win if 
necessary.
    That demonstrated preparedness to defeat is an essential 
part of our deterrent message. To counter Daesh, EUCOM is 
actively facilitating intelligence-sharing and encouraging 
strong civil-military relationships across ministries and 
across borders.
    And to meet all real and potential challenges, EUCOM is a 
central part of U.S. leadership in the NATO alliance as the 
alliance continues its adaptation through the Warsaw Summit, 
including the readiness and responsiveness of the entire NATO 
force structure.
    This year's budget request reflects our solemn commitment 
to the security of our allies and partners and to protecting 
our homeland forward. EUCOM does not yet have the personnel, 
equipment, and resources necessary to carry out this growing 
mission.
    But the continuation of the European Reassurance 
Initiative, or ERI, would strongly support EUCOM's efforts to 
counter Russian aggression and other threats by closing gaps in 
our posture and resourcing. EUCOM has carefully planned and 
executed the ERI funds you have authorized over the past 2 
years, even as our headquarters has shrunk to become one of the 
smallest.
    This year's budget request would significantly increase ERI 
funding to $3.4 billion. That would let us deepen our 
investment in Europe along five key lines of effort: providing 
more rotational forces, increasing training with our allies and 
partners, increasing prepositioned warfighting equipment in 
theater, increasing the capacities of our allies and partners, 
and improving the requisite supporting infrastructure.
    Together, the tools ERI would provide would send a clear 
and visible message to all audiences of our strong will and 
resolve. Our further efforts to assure, deter, and defend, 
supported by ERI, would complement those of the entire whole-
of-government team.
    EUCOM remains committed to a shared vision of Europe whole, 
free, at peace, and prosperous.
    Mr. Chairman, as my military career draws to an end I want 
to thank you again for your unwavering support of the men and 
women of our Armed Forces. And at this time I want to thank you 
for the personal opportunity to command them. I look forward to 
your questions.
    [The prepared statement of General Breedlove can be found 
in the Appendix on page 37.]
    The Chairman. Thank you, sir.
    We had a hearing a couple weeks ago talking about Russia. 
Among the witnesses, for example, was your predecessor. And the 
question was raised, is ERI to really deter Russia or is it to 
make our allies feel better? And maybe it will do one but not 
the--the latter but not the former.
    What is your view of that?
    General Breedlove. So, sir, I would agree with parts of 
that but I would like to elaborate on some others. I would 
agree that ERI does both assure our allies and I believe ERI 
begins the movement or the changes we need to make to fully 
deter Russia. But it is a step along that path.
    For the past two decades, as you know, Mr. Chairman, we 
have been in the position where we have been trying to make a 
partner out of Russia in Europe. And we have downsized our 
forces, downsized our headquarters, capabilities, et cetera, to 
become a community that was focused on engaging Russia as a 
partner and building partnership capacity in Europe.
    And what we now have is clearly not a partner in Russia. 
And so we have to begin reshaping the European Command and the 
NATO force structure to be able now to confront someone that 
does not wish to share our norms and values in Europe.
    And those 20 years of change will not be overcome in one or 
two steps. ERI is one of the steps along the way to reposition 
us, I think, in forces, in headquarters capability, in the way 
we deal with our allies, to get to where we need to be to 
deter.
    The Chairman. Well, let me follow up with one other 
question for you, and it really goes to the heart of 
deterrence, what deters. There was an article that just came 
out in the Foreign Affairs magazine that raises a point that I 
have thought about, and let me just read you a couple of 
sentences and then get your reaction.
    This is an article entitled ``Eurasia's Coming Anarchy,'' 
by Robert Kaplan. He says, ``In China and Russia it is domestic 
insecurity that is breeding belligerence. Whereas aggression 
driven by domestic strength often follows a methodical, well-
developed strategy, one that can be interpreted by other states 
which can then react appropriately, that fueled by domestic 
crisis results in daring, reactive, impulsive behavior which is 
much harder to forecast or counter.''
    And then he goes on to say, ``Part of what Putin is doing 
is for the more chaos he can generate abroad, the more valuable 
the autocratic stability he provides at home will appear.''
    So I guess my interpretation of that is part of what is 
going on, especially in Russia and maybe China, is for domestic 
political concerns they gotta have outward aggression, and the 
last point was the more chaos out there the more valuable he 
tries--he believes it makes him for his internal purposes to 
stay in power.
    But that makes it harder to deter, because if it is all 
about what is happening inside Russia then maybe this 
deterrence and ERI and other things isn't really going to get 
much done. I would appreciate your reaction to the thought and 
anything you can shed on that.
    General Breedlove. Thank you, Chairman. And I, again, would 
like to agree with some of the terms but elaborate on others.
    You have heard me say before that deterrence is in the mind 
of the deterred. And so we are after the mind and the decision-
making process of Mr. Putin.
    And I did see some of the discussion you had with Jim 
Stavridis, and I would like to use a similar formulation in 
that what I believe Mr. Putin sees and will deter him is using 
all of the instruments of a nation's power--diplomatic, 
informational, military, and economic. But they are all 
required.
    As you said in your opening statement and I did in mine, 
Mr. Putin understands strength and recognizes weakness. If we 
only use the diplomatic, the informational, and the economic to 
address Mr. Putin, he will see that the military is absent or, 
as I think Admiral Stavridis talked to you about, a lack of 
will to use the military may be absent.
    And so I think that to deter Mr. Putin we have to have an 
all-of-government response which shows resistance 
diplomatically, informationally, militarily, and economically. 
And then, important to the military piece is not only having 
the capability and the capacity, but showing the will to use it 
if and when required.
    Could I then address the other two pieces of your question?
    First, exterior chaos: I believe exterior chaos is a tool 
that Mr. Putin likes to use to give him a platform to show that 
the great power of Russia needs to intervene in a West that 
cannot bring order to the world, and it gives him that platform 
to try to talk about the game that great Russia, as an equal 
player on the stage, bringing order.
    The second piece that you talked about, sir, is domestic 
crisis inside the nation. I believe Mr. Putin is using a crisis 
inside his nation. I do believe that his people are feeling the 
drop in the oil prices, the sanctions, and the other things 
affecting his government.
    But he uses that to focus them on an external enemy to 
bring their focus to what he wants to do with his nation and 
his power. And he is now focusing his people completely on the 
United States first and foremost, and secondarily NATO as an 
external enemy that they need to be ready to rise up to meet.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you very much, General, for being here.
    Thank you, Mr. Chairman.
    We have an opportunity to work with our allies, our 
partners, and I think the discussion that you just had with the 
chairman is very helpful. Is that something that you feel is 
understood throughout the--our allied community?
    General Breedlove. Ma'am, I do. But understood is not 
attached always to the kind of action that maybe we would seek 
or hope for. But I will tell you that I am an optimist here. I 
am more of a glass full--half-full in the way our allies are 
now approaching the security environment in Europe.
    In Wales we saw the leading edge of the problems in Ukraine 
and we made the biggest changes to NATO ever, and some things 
are going extremely well--most things are going extremely well 
in that change. The military things we have done to change at a 
very high level this joint task force, the way we have 
organized our headquarters, the overall changes in the 
readiness and responsiveness of NATO forces, most specifically 
the ERF [European Rotational Force]--all these things are 
completely moving apace to be completed before Warsaw, and we 
have deployed and demonstrated them.
    And as I mentioned to you in not the too-distant past, we 
see the nations now turning around budgets. The numbers may be 
wrong; it changes from day to day. But 16 to 17 of our nations 
have stopped declines in their budgets; 5 were over 2 percent; 
6 or 7 now have a credible plan to get to 2 percent spending in 
a reasonable amount of time.
    So I have seen change which is good.
    Mrs. Davis. And the European Reassurance Initiative--how do 
you see that as a tool then for us to support, I think, those 
efforts specifically? And I just want to get a sense of--you 
mentioned that this is not going to be a 1-year budget. As I 
understand it, this is part of our Overseas Contingency 
Operation funds, and yet it is something that is going to have 
to continue.
    What would that look like to you? We are sorry that you are 
going to be leaving the command, but we know that you want to 
leave something in place. What should that look like as we move 
forward?
    General Breedlove. So, ma'am, as I explained before, and I 
won't go too far back but we have got about 20 years of a 
different paradigm to correct. We are on our third--we will 
have had 2 years of ERI and we are now asking for this third 
year of ERI.
    We have kept, as you heard me mention in my opening 
remarks, a focus on basically five areas.
    Infrastructure--and that is not building buildings, that is 
fixing ports, fixing rail yards, changing exercise and training 
areas, changing storage areas in order to make it easier for us 
to rapidly reinforce Europe.
    Preposition of equipment we talked about, and that is that 
we are in this ERI looking to bring across our second heavy 
force to put into preposition status. And this one will be used 
not for practicing but for warfighting.
    We are using the ERI to rotationally increase our forward 
force structure. I have been very straightforward: There is no 
real substitute for permanently forward-stationed forces. But a 
second best, which is acceptable and which is where we are 
heading, is to have a heel-to-toe rotational forces fully 
funded to increase our presence in Europe, and that is a part 
of the ERI.
    Building the partnership capacity, bringing other nations 
in the NATO alliance up alongside of us in the skill sets and 
capabilities we need.
    And then the last piece: training and exercise with our 
partners.
    So I don't mean to build a watch, but those five elements 
are going to be needed to be sustained for some number of years 
to get us to that position where we believe we are now in the 
position where we can deter--as well as ensure, but deter. And 
we are working now on what that future position we think should 
be.
    Mrs. Davis. Thank you, sir. And I think as people are 
refining that further that will be helpful for us to know and 
to work with our budget folks, as well.
    Thank you.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I want to join with you in thanking General Breedlove for 
your service. It has been an incredibly important time for you 
to be in Europe because you have both been incredibly 
articulate of the rising threat of Russia but not alarmist. You 
have balanced in telling us policymakers and decision makers as 
to what we need to do to give you the tools to change the 
dynamics.
    You and I have discussed the very public RAND study that 
most recently has tried to give a picture of that 
vulnerability, looking at the Baltics perhaps being available 
within 60 hours to Russia's new aggression, their 
modernization, and their forces.
    I appreciate your use of the word ``deter'' because it is 
incredibly important that we deter aggression, not just meet 
aggression. Preventing it from happening in the first place is 
going to require a military force for which there would be risk 
to the other side.
    You have indicated prepositioning as an important aspect. I 
would like to talk to you about two aspects of our change in 
posture that we need. And General Ben Hodges, who is the 
commanding general of U.S. Army Europe, has stated that, quote: 
``There used to be 300,000 soldiers in Europe during the height 
of the Cold War. Today we have 30,000 with the same mission: to 
assure allies and to deter Russia.'' There is a big difference 
between 300,000 and 30,000.
    So there are two vulnerabilities that we have, in listening 
to your comments; and I would like to know how to address them.
    One: We don't know what we used to know about what Russia 
is doing. We used to have all eyes on them and when they would 
do buildups and preparations for what you described as snap 
exercises we knew where they were going, what they were doing, 
and how they were going to do it.
    And two: With the concept of prepositioning, you know, we 
just don't have what we need there and we might not be able to 
get there. In the RAND study they point out the vulnerability 
of playing an away game while the adversary is playing a home 
game.
    Could you please describe what we need to be doing in both 
the aspects of greater understanding, greater visibility into 
Russia's actions and what they are doing, and secondly, then, 
emphasize again your statements of our need to have forces 
there?
    General Breedlove. Sir, thank you very much for the 
question, and I will try not to go long because it is quite a--
to walk this from left to right will take a moment. First and 
foremost, a lot of smart people in RAND. I really love their 
work and I have known most of these people most of my military 
career.
    But what you find from a study is tied a lot to how you 
have been given the problem. And what is the status of the 
forces at the beginning of a problem I think is at the heart of 
the matter of the question you are asking me.
    We used to have a very persistent and capable look at 
Russia at the strategic level, the operational level, and the 
tactical level so that we could understand what they were doing 
with their forces. And we built a robust system of indications 
and warnings, INW, that was based on that robust intel.
    For the past 20 years we have been refocusing--for all the 
right reasons, I think you would agree--some of our 
intelligence on Al Qaeda, Daesh, Taliban, other elements around 
the world. And so for the past 20 years, as we have been trying 
to make Russia a partner we have reapportioned a large portion 
of our ability to see away from Russia and towards these other 
threats.
    So the bottom line is we do not have that insight into 
their operational- and tactical-level work. We retained a view 
of that strategic force which makes them an existential threat, 
but we lost contact with the operational and the tactical.
    And in order to determine that we need to move forces into 
position that might change the outcome of the studies that you 
are referring to we need to have that capability and capacity 
of intelligence to reestablish indications and warnings so that 
we can deploy quickly the NATO Very High Readiness Joint Task 
Force, or deploy quickly the U.S. IRF [Immediate Response 
Force] to have them in position before or possibly to deter a 
conflict, and that might change some of the outcomes of what 
you are talking about.
    So it is incredibly important for the first part of your 
question that we reestablish our ability to see and interpret 
so that we can deploy early to hope to avoid conflict or to 
change the outcome of the conflict.
    Secondarily, as I said before, I believe that we will never 
go back to where Europe was when Captain Breedlove went there 
in 1983. Two corps, seven divisions, multiple brigades, 10 
fighter wings--it was a force to be reckoned with. We will 
never go back there. This is not the Cold War.
    But I do believe we are not where we need to be now in the 
mixture of permanently forward-stationed forces, prepositioned 
stock so that we can rapidly fall in on it. And then as you 
mentioned at the last part of your question, we are not where 
we might need to be to be able to penetrate with A2AD--anti-
access and area denial environment that would allow us to do 
the third part, which is rapidly reinforce.
    So just 20-second wrap up: I believe that we need to move 
forward in what our forward forces are, forward in how much 
prepositioned stock we have so that we don't have to have as 
many forward forces, and we need to make sure that we have the 
capacity to do anti-access/area denial to break it so that we 
can continue to rapidly reinforce.
    I hope I answered your question, sir.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you Mr. Chairman.
    And thank you. General, for your leadership and your 
thoughtful testimony here today.
    On page 4 of your written testimony you advocate that the 
U.S. should join the United Nations Convention on Law of the 
Sea treaty, UNCLOS. I find that kind of striking because 
yesterday your colleague, Admiral Harris, who is dealing with a 
totally different part of the globe and totally different set 
of issues in terms of maritime contest, made precisely the same 
recommendation. And I was wondering if you could sort of 
describe what you think the benefits would be if we took your 
advice and ratified UNCLOS and what are the hindrances that you 
are dealing with today by not being part of the convention.
    General Breedlove. Sir, thank you for the question. I think 
our uniformed military has been pretty consistent over time in 
the support of the UNCLOS.
    If I could just do a vignette for you of the Arctic. We are 
facing a very challenging situation in the Arctic. The Arctic, 
I think, should be an opportunity. As the ice flow pattern 
changes, the maritime trade route in the Arctic shortens by 
over 30 days, I am told, transit to the Far East. That should 
be an opportunity.
    Many of our NATO allies, Canada, and the U.S. are concerned 
about what we see as the militarization of the Arctic now by 
Russia. What we would see in the Crimea situation and the Duma 
situation, currently in Syria, is that Russia has a pattern of 
putting military force in the field to set the conditions to 
negotiate from a position of power.
    And so what we see now in the Arctic is Russia establishing 
a military capability and capacity to influence that new 
passage in the north. And being part of the UNCLOS would allow 
us to be at the table in the diplomatic, informational, and 
economic arenas to address that.
    Last week I think, sir, you saw that Russia changed its 
claim in the North Pole area. It didn't affect U.S. claims, but 
it affected three of our other allies' and partners' claims. 
And these are the kind of things that will be severed in the 
framework of the UNCLOS.
    Mr. Courtney. Thank you.
    Again, I think we learned again the harm recently when the 
Hague Convention denied the U.S. request to intervene on the 
Philippine claims in the South China Sea--again, a trend that I 
think really mirrors what you are talking about, militarizing a 
part of the Pacific. And our inability to even be at the table 
when these issues are being resolved that will have a direct 
impact in terms of military strategy and resources in the 
future, you know, is the ultimate unforced error. So thank you 
for your input this morning on that issue.
    Admiral Stavridis, when he was here a couple weeks ago, 
talked about the fact that the undersea realm is getting much 
busier, said, you know, highest level of activity since the 
Cold War. Do we have enough assets in terms of naval 
resources--submarines, anti-submarine, surface ships in terms 
of the European Command to address that issue?
    General Breedlove. So, sir, I am glad you asked that in the 
context of the European Command. I wouldn't want to try to 
advise you on the CNO's [Chief of Naval Operations] business on 
numbers.
    But these undersea assets are a very highly sought-after 
asset. I will just factually say I did not get what I have 
asked for, and what that means is that in the North Sea in the 
vicinity what we call the GIUK gap--Greenland, Iceland, U.K. 
gap area--where all of the sophisticated submarines and surface 
combatants that Russia has comes out of the bastion area where 
they are built, tested, and fielded, and then employs in the 
Atlantic, in the Mediterranean, and some of transits to the 
Pacific.
    But the bottom line is in that very contested, very highly 
sophisticated part of the world we play zone defense. We can't 
play man-on-man. And so I hate to simplify this, but it is just 
a very simple way of understanding.
    Mr. Courtney. Thank you.
    Again, our fleet today of attack subs is about 52 and, as I 
think you know, it is going to dip just because of the legacy 
fleet going offline. And, I mean, I guess we would probably 
agree that that is just going to make that stress even worse 
for your successors, in terms of trying to get those--the 
assets you need to play zone defense, let alone man-to-man.
    General Breedlove. And, sir, I would just--and not to 
change the question or to divert, but this is similar to other 
stories in what we call low-density, high-demand requirements: 
high-end ISR [intelligence, surveillance, reconnaissance], 
high-end aircraft, certainly submarines, et cetera, et cetera.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    General, it is good to have you back in front of us. Thank 
you for your service, and I don't think the administration has 
announced who is going to follow you but you are going to be 
tough to follow and I appreciate all you have done for our 
country.
    General, do you have an opinion as to whether you believe 
Russia has any intention of returning into compliance with the 
INF [Intermediate-Range Nuclear Forces] Treaty?
    General Breedlove. Sir, thank you for the question and I am 
going to answer it in the way I answer a lot of things. I am 
unable to ascertain and I don't think I am qualified to really 
determine what Mr. Putin and his folks intend, but what I would 
say is that what I have done--and I have said this to you 
before--I look at what our opponent does as far as building 
capabilities and capacities, and then I infer from that how he 
would use them or what he might do with them.
    And I think you have heard me testify before, as have many 
others, that we firmly believe that Russia is in violation of 
the INF Treaty, and that not only are they in violation of the 
INF Treaty but the type of weapons system that they have tested 
and fielded in that category is very easily hidden or masked in 
its conventional forces. And so it is worrisome to me that they 
have created a capability that will be very problematic for us 
to keep track of.
    Mr. Rogers. How do you think we should raise the cost to 
Russia for its violations?
    General Breedlove. Sir, the Secretary of Defense has laid 
out his approach to that and it is an escalating approach 
starting with diplomacy and then moving to more what I would 
call kinetic means. And I believe that we are in the phase 
where we are--we and our allies are trying to reach a 
diplomatic solution to that. But I support the Secretary of 
Defense framework for addressing the breach in the INF.
    Mr. Rogers. What do you think Russia is trying to hide from 
us in Kaliningrad by illegally denying our flights over this 
heavily militarized piece of Russian territory?
    General Breedlove. So Kaliningrad, sir, as you know, is a 
very militarized piece of property. And as we talked about just 
a little bit before, in this discussion of anti-access/area 
denial, A2AD, as we shorten it, Kaliningrad is a fortress of 
A2AD. It projects land attack cruise missile capability; it 
projects coastal defense cruise missile capability; and it 
projects air defense capability; so a complete bubble to defend 
against land approach routes or land targets, air targets, and 
seaborne targets.
    And as I mentioned before, some of the land attack cruise 
missile systems or land attack missile systems in Kaliningrad 
are those that can be dual-use, meaning they can be nuclear. 
And I would not guess what they are trying to hide, but there 
are a lot of things in there that support these capabilities.
    Mr. Rogers. Lastly, you made reference in your opening 
statement to Russia weaponizing the migration from Syria. Can 
you speak more specifically to that?
    General Breedlove. Sir, I cannot--again, I look at what I 
see in capabilities and capacities and I determine intent. So 
what I am seeing in Syria in places like Aleppo and others are 
what I would call absolutely indiscriminate, unprecise bombing, 
rubblizing major portions of a city that do not appear to be--
to me to be against any specific military target because the 
weapons they are using have no capability of hitting specific 
targets. They are unguided, dumb weapons.
    And what I have seen in the Assad regime from the beginning 
when they started using barrel bombs, which have absolutely no 
military utility, they are unguided and crude, and what are 
they designed to do is terrorize the public and get them on the 
road; later, Assad using chlorine gas and other chemical-type 
approaches to these same barrel bombs. Again, almost zero 
military utility, designed to get people on the road and make 
them someone else's problem--get them on the road; make them a 
problem for Europe to bend Europe to the will of where they 
want them to be.
    And so I see a continuing pattern in Aleppo and other 
places of this indiscriminate use of military capability that 
all I can determine from it is the goal is to get more people 
on the road and make them a problem for someone else to bend 
the will of those being affected.
    Mr. Rogers. Thank you, General.
    I yield back.
    The Chairman. Very disturbing.
    Mr. Ashford.
    Mr. Ashford. Thank you, Mr. Chairman.
    General, thank you very much. We had the opportunity a few 
weeks ago to--in conjunction with the trip to the Gulf States, 
to stop at NATO headquarters and be briefed, and much of what 
was said there is what you have suggested today. And I want to 
thank you for the efforts to get the other NATO partners to 
contribute the 2 percent. I think you had a great deal to do 
with that and it is such a big deal.
    And also the shift in the last 2 years in how we approach 
Russia, the threat of Russia, is much to do with your efforts, 
so I really--you know that, but I want to thank you again for 
that.
    One of the discussion points at NATO headquarters really 
was the discussion about the treaty itself, about Article 5, 
about--is--in your view, does the language of that agreement, 
which was--or that treaty, which is relatively older now--a 
little younger than me, but older--is the language sufficient 
as we look at the types of threats that you have described, 
whether it is cyber or whether it is little gray men or it is a 
different kind of situation?
    How close to Estonia do the Russians have to be or if there 
is some sort of cyber activity or other kinds of activity like 
that? At what point does it trigger? And that is my question.
    General Breedlove. Sir, thank you for that. And if I could 
just wind the clock back a little bit to the other articles of 
the treaty. We often talk about Article 5; as important to me 
is Article 3 and Article 4.
    Article 3 can be summarized very succinctly in defense 
begins at home, and we have been using that with our allies and 
partners to talk to them about just what you said: increasing 
and thickening their own defense, investment in their own 
country. And that investment is not only 2 percent in total, 
but what is also important is that 20 percent of that needs to 
be recapitalization of investment in kit. It is not helpful if 
the entire portfolio is in personnel costs. And so Article 3--
important.
    Defense begins at home, and we have been working with 
allies and partners to build capabilities that fit nicely into 
the alliance. Everybody doesn't need to be flying F-16s. Some 
people need to be creating tactical air control parties, 
rotary-wing lift, et cetera, et cetera. So molding the alliance 
via Article 3.
    Article 4, of course, is that point at where the nation 
feels threatened and begins a conversation with the other 
nations about, ``We are facing a threat and how are we going to 
respond?'' And this is the point when the nations are starting 
to look at and say, ``This is a legitimate breach of what NATO 
was built to do--collective defense.''
    And then Article 5, of course, is the most highly 
recognized one.
    To your point, the language is not precise when it comes to 
what we now call sort of the gray areas: the cyber, the 
hybrids. And Mr. Putin is trying to live below that Article 5 
level. He is taking action in nations now all around his 
periphery, trying to remain below that level at which the 
alliance would respond.
    That is tough. It is tougher in the states between Russia 
and NATO, but I think he is already taking these actions in 
some NATO nations.
    I would encourage maybe your staff to look at Mr. 
Gerasimov's model, his strategy of indirect action and 
deterrence. It is completely unclassified and out there on the 
Net, and if you look at his stage one, two, and three and what 
the actions he prescribes in that model of war, he is already 
taking those actions in many of our nations.
    Mr. Ashford. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    General, thank you for coming before this committee again. 
I understand this might be your last time before this 
committee, so if you will forgive me I would like to just take 
a moment and express my personal gratitude to you for being the 
noble and benevolent leader you have been on behalf of human 
freedom in this country, and I know my 7-year-old children have 
a better chance to walk in the light of freedom because of 
people like you.
    And I truly believe that on just the basis of this 
committee's perspective that you have been a strategic asset in 
the arsenal of freedom, and I can't express to you just the 
personal goodwill I have for you and your family.
    With that, in your opening statement--or your written 
statement--you talk a lot about the assurance and deterrence 
missions you accomplished under the umbrella of Atlantic 
Resolve. And it is my understanding that Atlantic Resolve is 
really not a named operation. What additional authorities and 
resources could you tap into if Operation Atlantic Resolve were 
a named operation?
    General Breedlove. So, sir, thank you. And thank you for 
your support of--Luke Air Force Base in Arizona, which is dear 
to my heart, but also to our military forces.
    So the difference between the operation itself--and a named 
operation is subtle but important. Named operations have 
funding streams, they have dedicated rules of engagement, they 
garner certain priorities and allocations of forces, et cetera, 
et cetera. And so a named operation would bring more stability 
and long-term focus to Atlantic Resolve.
    We are thankful to this committee and others for 3 years--
or 2 years and possibly a third year--of ERI, which is very 
important to Atlantic Resolve because it pays for those 
rotational forces and things that explain we are a part of the 
way forward. I think a named operation would give a sustained 
funding stream to things like that.
    Mr. Franks. You also mentioned that EUCOM does not yet have 
the personal--personnel, equipment, and resources necessary to 
carry out its growing mission. And to me that implies that 
although there is a plan for the future, that if a military 
crisis were to break out in there tomorrow, that you would not 
be equipped to deal with it as you would see fit.
    So what specific resources do you need to fulfill your 
missions which are not included in the current budget? And 
secondarily, is your headquarters adequately sized and staffed 
at the levels required for you to execute your mission?
    General Breedlove. So, sir, if I could step back just to 
piggyback on a thought that I put out before, for 20 years we 
have been trying to make a partner out of Russia and we have 
changed our force structure and our headquarters and other 
capabilities in Europe to reflect a mission that was about 
engagement and building partnership capacity.
    Now we have determined that we--people categorize it 
differently, but we definitely do not have a partner in Russia. 
And our resolve now is to be able to meet the challenge of a 
resurgent, revanchist, however you want to label it, Russia.
    We have to be able now to be a warfighting headquarters and 
a warfighting force, as opposed to an engagement and 
partnership-building capacity force. We will still do those 
functions, but we have to rethink, do we have the capability 
and capacity to be a warfighting force? And we do not.
    And I think that we have got to look at our forward force 
structure; we have got to look at our prepositioned capability; 
and we have got to make sure we have the access to Europe in 
the face of A2AD. That will take capacity and it will take some 
new capabilities.
    And as to the headquarters, our Secretary--Assistant Deputy 
Secretary of Defense has recognized that our headquarters is 
not sized right. We are still downsizing the headquarters from 
the BCA [Budget Control Act], first $478 billion cuts. We had 5 
years' worth of cuts to the headquarters laid in. We are still 
getting smaller. But this year the Deputy Secretary has 
increased our headquarters size to stop--to arrest that, and 
hopefully we will continue to do that across the next years.
    But it will take some time to reconstitute a warfighting 
headquarters from where we have been for the last 20 years.
    Mr. Franks. Well, thank you.
    Thank you, Mr. Chairman. Mr. Chairman, I hope that this 
committee and this country have the opportunity to access the 
wisdom and acumen of this gentleman in the future.
    The Chairman. Appreciate it.
    Mr. Moulton.
    Mr. Moulton. Thank you Mr. Chairman.
    And, General, thank you very much for your service.
    Are we meeting Russia's threat in the Arctic, from your 
perspective in Europe? Are we adequately meeting the 
militarization of the Arctic today?
    General Breedlove. I am going to try to answer this 
question along the following lines: I do not believe that our 
nation, nor most of the other nations of the Arctic Council, 
wants to militarize the Arctic.
    Mr. Moulton. Well, I agree with that.
    General Breedlove. But what we see is that our opponent has 
decided to militarize the Arctic. And so I think this is again 
a discussion of do we have the appropriate capabilities of all 
manner--aircraft, icebreakers, other things--and do we have the 
capacities? And that is work that is being looked at now. I 
think----
    Mr. Moulton. From your assessment today, do you believe 
that we have those capabilities and capacities to meet and 
deter Russia's activity in the Arctic?
    General Breedlove. In the Arctic? We do have some extremely 
capable Arctic capabilities, as do some of our allies.
    In fact, just before arriving here for this series of 
engagements with Congress I was in Alaska and we were talking 
about this with the leadership in Alaska and the forces of the 
ALCOM [Alaskan Command] there, and they do specialize in these 
capabilities. The real question is we have to determine what 
the capacities that are required are.
    Mr. Moulton. General, moving on to a different topic and 
back to Representative Ashford's question, some experts have 
said that now we have to afford additional policy authority to 
DOD [Department of Defense] to allow for training of National 
Guard, other forces, to counter the little green men and little 
gray men in Eastern Europe. How can this be best accomplished 
and what changes to statute or what policy provisions would 
better enable that kind of cooperation?
    General Breedlove. Sir, I am going to be very honest. I 
don't think I can answer it the context of how you asked it, 
but I do believe I can address this issue.
    Mr. Moulton. Okay. Okay.
    General Breedlove. So the capacity to address hybrid 
warfare in its many forms--and it is bigger than little green; 
as you have heard, we also talk about little gray men, meaning 
that hybrid warfare goes across all four elements of national 
power--diplomatic, informational, military, and economic. And 
so leaving the nations where they are and helping them to 
determine what they need to do is important, and I will get to 
the part that is important to you.
    For instance, if you look at the three Baltic nations from 
north to south, they do things very differently. This hybrid 
approach in one nation is almost completely a military problem 
and very slightly a ministry of interior problem. In another of 
the nations it is about 50/50, ministry of defense, ministry of 
interior. And then the other one is exactly opposite; it is 
almost entirely ministry of interior and partly ministry of 
defense.
    So I think where your question is heading is, as you know, 
we have unique title 10 limitations of what we can do with 
other nations, so it is an all-of-government engagement. The 
National Guard brings some interesting capabilities, when you 
have guardsmen who have experiences in other fields--for 
instance judiciary, legal----
    Mr. Moulton. Sure.
    General Breedlove. And so I think that is where this may 
have headed.
    Mr. Moulton. So, General, do you think that we need to 
revise the current policy to be able to do that kind of 
training, to better meet this hybrid warfare or whatever you 
want to call it threat from Russia?
    General Breedlove. Sir, I don't think I know--or I am not 
familiar with the limitations enough to pass judgment. But let 
me tell you, as a commander I need the ability to engage a 
government across all the elements of government power to train 
them to address the hybrid war.
    Mr. Moulton. That is very helpful, General. I think my 
concern is that, as you said, we are never going to get to the 
seven divisions that we had in the Cold War, and we can expend 
all our resources trying to incrementally move in that 
direction, which may be headed in the right direction, but if 
[we] expend all our resources doing that and don't get to a 
point where it adequately does deter Putin at the expense of 
all these other aspects of this warfare we are going to really 
miss the boat.
    General Breedlove. I completely agree that we have to have 
capacities in all of those elements of national power to deter, 
as we have talked about with Congresswoman Davis.
    Mr. Moulton. Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Dr. Fleming.
    Dr. Fleming. General, I want to thank you for testifying 
before us today and, once again, thank you for your sage 
counsel and advice and all your years of experience and what 
you have brought to the table. You will be sorely missed. 
Everything you said I think is spot-on to where we need to be 
in terms of deterrence and dealing with an emerging Russia.
    I do have some questions. I told you earlier with respect 
to B-52s, Barksdale Air Force Base is in my district, home of 
Global Strike Command and General Rand, and so I want to know 
from you, what is the deterrence effect of the B-52 bomber? 
What do you see as the future for that bomber in terms of what 
it can bring to the battlefield both in kinetic action but also 
in deterrence?
    General Breedlove. Sir, I will not dodge your question, but 
I would say this is much more appropriately addressed by 
General Welsh and others as to that specific platform. But let 
me tell you what the bomber--and the B-52 being a mainstay of 
that fleet--the bomber brings to deterrence.
    And that is as you know the B-52, the B-1, and to a certain 
degree the B-2 have become much more flexible across their 
lives. And the B-52 as a platform for employing all manner of 
weapons like the other bombers, but certainly the B-52 is a 
great deterrent effect because it can be a part of a purely 
conventional response to try to de-escalate the situation, 
which is what we really want.
    We don't want to fight. We want the capacity and capability 
to defeat, but we don't want to go there. And so the ability of 
that particular platform to be able to do all missions and 
bring capacity to both a conventional and a non-conventional 
war is important.
    The other piece is it has proved, as you know, to be an 
incredibly long-living airframe with capability still into the 
future. I am not sure if it is still true, but when I was the 
vice chief of staff at the Air Force now 5 years ago we used to 
say that the mother of the son or daughter that will be the 
last pilot of the B-52 has not been born yet.
    Dr. Fleming. Right.
    General Breedlove. And it will be well over 100 years old 
before we are done with it.
    Dr. Fleming. Yes. Amazing.
    Well, and since you brought that up, we are looking at the 
development of the Long Range Strike Bomber [LRS-B], so my 
question is what will be that effect and what are the current 
timelines for both the upgrade to B-52 and replacement of long-
term strike bombers?
    General Breedlove. So, sir, as you remember, we were 
talking earlier about A2AD--anti-access/area denial. One of the 
biggest keys to being able to break anti-access/area denial is 
the ability to penetrate the air defenses so that we can get 
close enough to not only destroy the air defenses but to 
destroy the coastal defense cruise missiles and the land attack 
missiles, which are the three elements of an A2AD environment.
    One of the primary and very important tools to busting that 
A2AD environment is a fifth-generation ability to penetrate. In 
the LRS-B you will have a platform and weapons that can 
penetrate, key to the future in the--of the older generation 
bombers and platforms are developing, and we are and have those 
weapons that can penetrate. And so those upgrades are all 
important to me as a user so that I can call on the service to 
bring forward the capabilities and capacities to address A2AD.
    Dr. Fleming. Right. Great. Thanks.
    And in the remaining time I have, could you comment on the 
current state of research by the Navy and Air Force into 
deterrence assurance? By this I mean the gaming scenarios in 
planning to address the aggressive behavior and Russia's 
apparent shift in nuclear doctrine.
    General Breedlove. So I can't speak specifically to just 
the services. You may be familiar with what we call the RSI, 
the Russian Strategic Initiative. It is modeled after the CSI, 
the Chinese Strategic Initiative, which is nearly 7 years old. 
As we in the past couple of years have seen Russia as no longer 
a partner we have developed the Russia Strategic Initiative to 
do just this kind of work, to look at the things we need to 
change in weaponry, but more importantly, to do things like war 
gaming to understand how they would react to our war plans, et 
cetera, et cetera.
    So what I am aware is as the leader of the Russia Strategic 
Initiative for the Department of Defense, we are getting some 
very exquisite help in understanding this business.
    Dr. Fleming. Great. Well, thank you, General, and so much 
for the Russian reset.
    And I yield back.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    General, I want to thank you for your testimony today and 
for your service to our nation. Your service has been 
absolutely invaluable to our country and we will miss you in 
your retirement. But I certainly want to be among the many to 
wish you well in this next chapter of your life.
    Officials within the Department have stated that they are 
very worried that our military's ability to counter and wage 
electronic warfare has atrophied pretty significantly while 
other partners around the world--or I should say adversaries 
around the world--have invested heavily in this area, and that 
we may be lagging behind countries such as Russia. Would you 
agree with this assessment, and how do you believe EUCOM is 
currently positioned to address this challenge across the AOR 
[area of responsibility]?
    My other question that I have I hope we can get to is--and 
I spend a lot of time obviously on cybersecurity, and you 
mentioned that the challenges that we face in that space with 
respect to what Russia is doing. And my question is, how do you 
believe that we are doing at countering cyber threats with our 
allies against what Russia is doing and what their capabilities 
are? And do our NATO allies see eye to eye on this threat, and 
are our partners' capabilities mature enough to manage the 
dangers that--and challenges that we are seeing across 
cyberspace?
    General Breedlove. Thank you, sir.
    On the electronic warfare the same sort of situation 
applies. For 20 years we have been making a partner out of 
Russia so our focus has not been on the capabilities that they 
have been developing. And secondarily, again, for all the right 
reasons for the last 13 or so years our nation's military has 
been focused on counterinsurgency operations, COIN, in 
Afghanistan and fighting Al Qaeda in some of the spaces around 
the world.
    And so we have been focused very deeply on addressing a 
threat that does not have electronic warfare capability. So 
while we have retained capability, we have not really practiced 
to it to the veracity that we used to, nor have we retained the 
capacity that might be required to bust these growing A2AD 
problems we see around the world.
    So to really shorten the answer up, we have electronic 
warfare capability; we probably do not have the capacity we 
need now to address it. Our suppression of enemy air defense 
capabilities, SEAD, to take down air defense nets and things 
are very good but they are not dense. We don't have a lot of 
them.
    Russia knows how we roll and they have invested a lot in 
electronic warfare because they know that we are a connected 
and precise force and they need to disconnect us to make us 
imprecise.
    When it comes to cyber, this is, sir, I think a glass well 
over half-full. When I arrived to my station about 3 years ago 
I think that many of the nations of the alliance and in Europe 
were very insularly focused. They were acknowledging the cyber 
threat but they were worried primarily about their own cyber 
problem.
    What we discovered, though, is with 28 nations in alignment 
in an alliance you may have an absolute iron curtain wall 
around two or three of them, but there are 25 other doors into 
the enterprise. And so what we had to do is come to a larger, 
more corporate approach to cyber.
    And, sir, I see that happening. I am encouraged by what I 
see happening.
    I would recommend that someday in your travels you stop 
into Estonia and go to the NATO cyber center in Tallinn. It is 
absolutely superior and they are adding value to our alliance 
every day.
    Mr. Langevin. Thank you, General.
    Next question: Is there a role for the U.S. and for EUCOM 
to play in assisting our European allies to mitigate the 
potential national security threats when it comes to the 
ongoing refugee crisis? What does that role look like and what 
resources are needed?
    General Breedlove. Sir, there is a role and we are 
executing that role now. The refugee crisis and the part that 
we are addressing the most is that embedded in this refugee 
flow is criminality, terrorism, and foreign fighters. We have 
adopted and built a very good network of sharing information, 
sharing intelligence, and trying to target and understand these 
flows of criminals, terrorists, and foreign fighters as they 
move back and forth, and so we are a part of that now.
    As you are aware, the NATO alliance began an operation in 
the Aegean Sea essentially just about a week ago where we are 
beginning to try to help our Greek and Turk allies to address 
the dense flow of refugees across that water space by being a 
part of managing that water space in terms of surveillance and 
reconnaissance and handing off data to the coast guards of 
Turkey and Greece. It is a little more complicated than that, 
but we have--the NATO alliance has begun to enter into that 
portion of the mission as well.
    Mr. Langevin. Thank you, General, and thank you again for 
your service. We wish you well.
    General Breedlove. Thank you, sir.
    The Chairman. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I definitely want to thank General Breedlove and his 
staff for your honest answers in the prior meeting that we had. 
It is very sobering to hear where we are and without illusion.
    I worry as we move forward. You know, we have done this now 
pivot to Asia, rebalance in the Pacific, all those types of 
things, and I think we are trying to do, unfortunately, way too 
much in regards to the stresses that we are putting on the 
military.
    You know, there was a point in time where our policy was to 
be able to fight, you know, two major conflicts while, you 
know--but what we found is that we had a hard time doing one 
when you look back at Afghanistan and we had to have, you know, 
forces there for 15 months on a single rotation.
    And so I think that we are fooling sometimes the American 
public to think we have the--I know we have the desire and I 
know that we have the best trained, best equipped force on the 
face of the Earth. But I don't know that we have enough, and I 
think we hit that on capacity, that we have enough to do the 
things that we told the American people that we can do and 
should do.
    I think we have been really I guess hiding the ball in 
regards to hoping that our adversaries don't see that, and I 
truly have a lot of--I believe that Mr. Putin is very 
calculating and is not stupid by any stretch of the 
imagination.
    But I guess the question is, you know, back when I first 
ran 6 years ago it was a big deal about, ``Hey, listen we need 
to get out of Europe; we need to let the Europeans deal with 
their issues.'' And I think while that sounded good at the 
time, obviously now we are paying a dear price for that.
    So why is it so important? And we need to stress this to 
the American public because everyone is footing the bill. Why 
is it so important that we have permanently stationed--forward-
stationed troops and equipment in Europe? Why is it that 
important that we should invest that?
    General Breedlove. So, sir, thank you for the question. And 
just a 30-second recap: I believe that permanently forward-
stationed troops are a part of that mixture.
    Mr. Nugent. Correct.
    General Breedlove. We have to have the appropriate amount 
of permanent-stationed, the appropriate amount of prepositioned 
so that we can rapidly reinforce, and then we need to have the 
capability and capacities to be able to rapidly reinforce to 
include busting this A2AD problem. So the permanently forward-
stationed forces are an important part.
    And here are some things that are not often heard. 
Permanently forward-stationed forces buy you a lot of things. 
One of them is relationships, and relationships equal access.
    The flexibility that our--many of our nations, but let me 
just mention a few--that Spain, Italy, Greece, and even 
Turkey--the flexibility that they give us to move around and 
employ forces to address problems across all of North Africa, 
the Levant, and even to support CENTCOM [Central Command] into 
Syria and Iraq, this is all built on relationships and trust 
that are established over time by permanently stationed forward 
forces. I cannot overstate the importance of having these--this 
access.
    A couple of sort of quippy remarks that I will give to you. 
One is that you cannot surge trust. You cannot surge 
relationships. If we are not in a nation, establishing trust 
and relationship, and then when we desperately need to be able 
to do execute force from or within that nation you don't--you 
can't surge the trust or the relationship.
    Mr. Nugent. And doesn't having permanently stationed forces 
buy us time to do just what you are talking about? When you 
have prepositioned equipment it buys us time to actually get to 
that equipment?
    General Breedlove. It does. It does, and that is why it is 
a mix. The permanently forward-stationed forces are there, 
ready, and can execute. They are ready to fight forward if they 
have to, and that allows--enables the prepositioning and 
enables the capability to respond.
    Mr. Nugent. So do we have enough prepositioned--or not 
prepositioned, but do we have enough permanently stationed 
troops in Europe?
    General Breedlove. Sir, I am on record multiple times as 
saying no. We are looking at that now, but if we choose not to 
increase permanently stationed forces forward then we can 
adjust and pick up the requirement in the rotational force.
    Mr. Nugent. But hasn't it been a problem in regards to--and 
I know we--and I'm getting gaveled out on this one--but in 
regards to when you have different commands flushing through 
that you don't have a continuity?
    General Breedlove. Right. This is a problem that could 
manifest itself. Our U.S. Army and Navy and Air Force, by the 
way, in their rotation patterns are dedicating units. It will 
not always be perfect, but we have units assigned with a 
primarily European mission that are a part of that rotational 
force. We are trying to address just your concern.
    Mr. Nugent. I appreciate it.
    And I appreciate the Chair. Thank you for very much.
    The Chairman. Ms. Duckworth.
    Ms. Duckworth. Thank you. I am actually going to continue 
the gentleman's line of questioning because we were thinking 
along much of the same ways.
    General, thank you again so much for being here. I want to 
pick up on this line of questioning.
    You know, the fiscal year 2017 budget request quadruples 
the amount of the fiscal year 2016 request for the European 
Reassurance Initiative, but a lot of that is for prepositioning 
of equipment in Central and Eastern Europe, and for heel-to-toe 
rotational deployments. I was reading the National Commission 
on the Future of the Army's report that has two significant 
recommendations. One is to forward station an ABCT [armored 
brigade combat team] in Europe itself, whereas the other has to 
do with the aviation, the CAB [combat aviation brigade].
    And I want to sort of peel back the layers of the effect of 
the Army's Aviation Restructuring Initiative and what it has 
done to our aviation capability in Europe. Specifically, you 
know, we go back to this idea of building trust and long-term 
relationships. One, let me start off by saying--am I right in 
saying that you would prefer to have permanently placed ABCT 
and additional equipment in Europe? Would that be a true 
statement?
    General Breedlove. Yes, ma'am.
    Ms. Duckworth. Okay. So on the aviation side, the report 
actually suggests that the rotational model will work except 
that we need more of a warfighter-aligned headquarters. What is 
there now is really more of an administrative aviation 
headquarters as opposed to a CAB-type of headquarters there 
that would actually be much more aligned to that rotational 
mission, they can come in, they can pick up. Would you agree 
with that?
    General Breedlove. So, ma'am, the report I think correctly 
identifies the absolute value of having a dedicated command and 
controlled force. And frankly, it just emphasizes the value in 
general of Army aviation as one element of air power in Europe. 
And they are all absolutely critical.
    Ms. Duckworth. They are. Thank you. I am not promising 
anything, but I would hope that with such an increase in the 
ERI funding that we might be able to address some of the 
aviation shortfall.
    Can you talk a little bit more about the rotational model 
on your aviation needs in Europe? And where have you assumed 
specifically the most risk and what capability gaps needs the 
most attention when it comes to Army aviation?
    General Breedlove. So, ma'am, what I need to do is give 
some thanks and respect to what the Army did as they took the 
last tranche of aviation out of Europe. If you look at it in a 
net way, we really didn't lose any presence because the 
aviation that we had in Europe at the time was continually 
being tasked into theater. So while it was assigned in Europe 
it was gone a fair amount.
    A larger piece left Europe, but the rotational piece that 
we got to replace it is dedicated to Europe and does not rotate 
into theater. So it netted out almost exactly the same in the 
amount of time that we had aviation on the ground. So I need 
to--we need to properly acknowledge the Army's efforts to make 
this right for Europe.
    But the larger picture is that faced with the revanchist, 
resurgent Russia, we do not have the aviation requirement that 
we need in Europe, and that will be the focus of my command 
into the future.
    Ms. Duckworth. Okay. And so you are actually saying--are 
you saying then that you would like to have a full--a CAB 
permanently stationed in Europe?
    General Breedlove. Ma'am, the planning is ongoing. It may 
be more than a CAB. I would not want to put a number on it now 
and have it exactly wrong when the planning is finished.
    Ms. Duckworth. Okay. I only have a minute left. Can you 
comment a little bit on the State Partnership Program? Having 
been in the--spent my 23 years in the Illinois National Guard--
--
    General Breedlove. Cannot say enough about it.
    Ms. Duckworth. Since Poland is our country and they are 
staring down the barrel of Russian aggression there in Poland--
--
    General Breedlove. The State Partnership Program, 21 
States, 22 nations, is one of my premiere tools. I hate to use 
a word like that, but literally they represent 23, 24 percent 
of the engagement that I have in Europe.
    I have told this committee a couple of times that I much 
prefer permanently stationed forces, rotational forces being an 
acceptable but second option.
    I would recategorize a little bit the State Partnership 
Program. They are a rotational force. They are a bit episodic. 
But the difference is that they maintain long-term 
relationships in leadership, in command, in training.
    Forces are going left to America, right to Europe, and 
the--most of these programs are wildly successful. Some of them 
are just successful. But the point being that this is a very 
valuable tool in our quiver to be able to develop capacity in 
our allies, especially the smaller, former Soviet allies, et 
cetera, et cetera.
    Ms. Duckworth. And I thank you for service to this country, 
General.
    General Breedlove. Thank you, ma'am.
    The Chairman. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you.
    And, General, thank you. As everyone else has, you are a 
great military leader and we appreciate it more than we could 
ever tell you.
    Yesterday on the floor of the House, Mr. Brooks, who just 
left a few hours ago, gave a very disturbing speech on the fact 
that America is headed toward Greece financially. I later came 
along to give another 5-minute speech about the waste of money 
in Afghanistan, talked about the fact that John Sopko said 
that, to the Senate, that our country, Department of Defense 
spent $6 million to buy nine goats from Italy to send to 
western Afghanistan.
    I wonder, when I listen to you, and--because I have such 
great respect for your evaluation of Russia and the threat that 
they could bring to more of Europe than it does today. Then I 
think about the comment by Admiral Mullen when he was Chairman 
of the Joint Chiefs when he said, ``The biggest threat to our 
military is the growing debt of our nation.''
    I listen to you and your recommendations and the things 
that you feel like we need to do not only in Europe but for our 
military, but specifically Europe today that we need to do to 
be a stronger deterrent in Europe. My concern is that I have 
read recently that a couple of the civilian leaders in a couple 
of the countries have debated reducing the amount of money 
going into the defense budget of some of those countries.
    You, having relationships that you have had both with 
military leaders and civilian leaders, do you feel--talking 
about the civilian leaders now, not the military leaders--that 
they fully understand that they have got to make a financial 
investment as much as America has to make to keep Europe safe 
from being taken over by Russia?
    General Breedlove. Sir, thank you much. And if I could just 
comment that I have deep respect for Admiral Mullen. I have 
worked for him a couple of times directly in my life and he is 
a man of, I think, incredible character, and he really has it 
upstairs.
    The answer to the last part, which is the focus of your 
question, is we need to have a sober reply. But I have said 
that I am a glass half-full----
    Mr. Jones. Right.
    General Breedlove [continuing]. Here.
    In Wales we made a commitment--we being the nations of the 
alliance--made a commitment to get towards the 2 percent. They 
gave themselves a broad time period, which, you know, was a 
little bit worrisome--10 years. But they made a commitment to 
get to 2 percent. What I have seen is because of the continued 
aggressive behavior of Russia the nations have become much more 
focused on this.
    And I have used these three numbers a couple of times. They 
are exactly wrong. They change, but they are pretty close to 
right: 16 of NATO's nations have stopped the decline in their 
budget; 5 of NATO's nations are already at 2 percent--we need 
to qualify at least one of those and I will mention that in a 
second; and then I believe--this is Phil Breedlove's opinion, 
not others--that there are about 7 nations that have I think a 
legitimate plan to get to the right spending in a reasonable 
amount of time, not 10 years but 4, 5, 6 years.
    And so I think I would use those numbers to point out to 
you sir, that I do believe the leadership of the nations are 
beginning to make decisions with their budgets. I do not want 
to overstate because there is a lot here to do. And as I 
mentioned earlier, one of the important things in the 2 percent 
is that it is important and the other goal is that 20 percent 
of that 2 percent is on recapitalization investment so that 
they can bring capability to the table.
    If the entire budget is a personnel budget it is not going 
to be helpful over time as a force. And so we also need to 
bring focus among our allies and partners that they not only 
get the investment up, or certainly arrest the decrease, but 
they also need to look at the investment accounts to make sure 
that they are bringing capabilities to the fore.
    But I just want to close with it is not perfect. A lot of 
work to do, but I am over half-full here because of what I see 
in these trend lines.
    Mr. Jones. General, thank you so much.
    I yield back.
    The Chairman. I was just looking; we are at 26 percent, 
according to the last chart we have up here, on the 
monetization part. So we got a little work to--have a little 
work to do.
    Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    And thank you, General Breedlove, for being here to testify 
and for your service and leadership to our nation.
    I am interested to hear your thoughts on the increased 
online presence of ISIL in Europe and our capacity to truly 
counter these threats at the combatant command level. How is 
EUCOM leveraging technology and new ideas to counter online 
propaganda and equipment as it relates not only to the hybrid 
threat posed by Russia but also this increased online 
recruitment and digital propaganda that we are seeing by ISIL 
in Europe?
    General Breedlove. So I would categorize this in two ways. 
We are not where we need to be yet. We have a lot to do. We 
have started and are headed in the right direction.
    I am sure you will have Admiral Rogers here from NSA 
[National Security Agency]/Cyber Command to talk to you. He has 
been a magnificent partner in that he has taken the approach of 
pushing capacity and capability to the combatant commanders so 
that the combatant commanders can individually focus and target 
that capability and capacity.
    In this open forum I will have to stop there on what that 
looks like, but let me assure you that the admiral has a 
wonderful focus on how he is going to do this for us, but it 
is--we have a lot farther to go.
    Inside of EUCOM itself, again, in an open forum I will tell 
that we have several venues where we are using exquisite tools 
to get after this problem set. And I will just stop there. 
Again, not enough yet, but we have started this process.
    Ms. Stefanik. So as much as you can say in an open forum, 
what tools do you need? How will increased ERI funding assist 
in the area? Broadly, can you give us guidance?
    General Breedlove. So, ma'am, ERI is more focused on our 
allies and how we fight there, and so I will have to have my 
staff get back to your staff. I don't want to misstate.
    I am not sure that there is this specific capability. There 
are capabilities in cyber, but what you are talking about I 
cannot definitively speak to that. I will have my staff contact 
your staff on that----
    Ms. Stefanik. Great.
    General Breedlove [continuing]. Rather than misstate.
    [EUCOM has contacted Rep. Stefanik's staff and will provide 
a briefing in response to her questions.]
    Ms. Stefanik. Let me shift to another area. A mission as 
complex as EUCOM requires a great deal of international 
partnership and interagency communication. How well, in your 
assessment, is EUCOM integrated with the various agencies 
throughout Europe to counter the increased threats, and would 
you say there is a solid unity of effort between partners and 
agencies to counter the challenges posed by a resurgent Russia 
and the various unconventional threats that face Europe today?
    General Breedlove. Ma'am, this is a place I am very proud 
of our command. We are well integrated. And partially that is 
because this committee made decision years ago to develop a 
distinct branch of our command called J9 where we pull in all 
of the other agencies. It is a little mini agency. And we pay 
for their presence in order to ensure that we have connections 
to law enforcement, FBI [Federal Bureau of Investigation], and 
a lot of other agencies which we will not mention here.
    But we know that in Europe when we try to combat things 
like foreign fighter flows and terrorism--in Europe this is not 
about kinetic strikes like it is in Afghanistan, Iraq, Syria, 
and portions of North Africa. In Europe this is about 
integrating with the highly capable legal, judicial, and police 
systems of Europe. And so we have invested distinctly in this 
capability to have connective tissue to the other nations of 
Europe.
    And so this is a place where EUCOM before my time--I do not 
take the credit except for that we have expanded it and 
continued to fund it before me--but leaders before me have seen 
the wisdom and the value of this interagency approach in 
Europe.
    Ms. Stefanik. Great. Thank you very much.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, General Breedlove, for your service and 
commitment to our troops and to our security. You have talked 
many times about the force structure and our downsizing in 
Europe. I think back at one point we had I think six A-10 
squadrons in the U.K. back in the day, then we went to one at 
Spain, and less than 3 years ago that one closed down.
    We are now deploying A-10 units of the nine remaining 
operational across the active Guard and Reserve for part of the 
ERI in order to help with training and deterrence. So that is 
just one example, but that was just a couple years ago.
    Can you give some insight into the logic? That is an entire 
capability, because now there is none there, that we have lost.
    And I am still waiting to hear about from the Air Force as 
the cost comparison of stations that are full-time versus 
rotating over. But can you give some insight as to that logic, 
and do you think looking in hindsight that was not a good 
decision?
    General Breedlove. So I will allow the Air Force to talk to 
you about cost-benefit ratio.
    Ms. McSally. Right----
    General Breedlove. As a user I am just looking for the 
capability.
    And I think, you know, I--the round number that my staff 
gave me is that we are--we have about two A-10 exercises and 
about 200 flying hours a month on average now in EUCOM. So we 
are asking for that capability.
    I try to refrain from asking specifically for airframes; I 
try to ask for capabilities. And certainly we have airplanes 
that can deliver what the A-10 delivers, but the A-10 is 
extremely good at delivering----
    Ms. McSally. I mean, just based on your overall testimony, 
though----
    General Breedlove. Right.
    Ms. McSally [continuing]. Would it be better to have a 
capability like that stationed in Europe versus rotating over, 
just in line with everything that you said?
    General Breedlove. So what we have seen is that that 
capability serves a very important niche of our requirements.
    Ms. McSally. Great. Thanks.
    You may not be able to answer the next question but a 
recent RAND study, looking at defense of the Balkans, talked 
about, among other things, a, you know, lack of air superiority 
because of just the swift nature of that potential scenario. 
You said you were looking into force structure options, but if 
you were not resource-constrained and you had everything you 
wanted, could you give a sense or can you get back to me with a 
sense of what would the fighter force structure look like in 
order to make sure we have air superiority.
    It has been now 60 years since the last time we did not 
have air superiority in any military operation so----
    General Breedlove. April 1953----
    Ms. McSally. Exactly.
    General Breedlove. So yes, ma'am. We do not at present have 
sitting on the ground in Europe sufficient capacity----
    Ms. McSally. Right----
    General Breedlove [continuing]. To ensure air superiority 
over the battlefield. We would have to start off any conflict 
working towards localized air superiority to employ troops and 
then reinforce from the rear.
    If I could, I would actually attack this question a little 
differently. The premiere aircraft in air superiority these 
days are not only air superiority platforms but they are 
explicit, stealth, precision, attack platforms.
    And these kinds of capabilities are incredibly important to 
busting that A2AD problem that we have talked about several 
times today, not only to provide air superiority for the troops 
but that stealthy ability to deliver precise weapons to take 
down A2AD is incredibly important. And it will take a 
significant amount more of that capability to establish what 
you and I have known to be air superiority over the 
battlefield.
    Ms. McSally. Yes. Could we maybe get back in a classified 
setting about what that--like how many--what would that look 
like? What would the force structure look like? What----
    General Breedlove. So, as you know, we are working our war 
plan through the business now, and that will allow us to 
definitize that. It is not ready for primetime yet.
    Ms. McSally. I have just got about a minute left. Obviously 
we have talked about the challenge of our partners not reaching 
2 percent of their GDP [gross domestic product] and their 
spending. It seems like the awareness level is going up and 
some turning around, but it is still not enough.
    If we compare the--with the PACOM [Pacific Command] 
theater, you know, our allies see the value of us being there 
for their own defense and they often support in other ways, 
even if it is not just with the military. They are paying the 
bills; they are providing that monetary support.
    Are there other initiatives we could push a little harder 
on right now, now that we have got the Russian threat, we have 
got the ISIS threat, to say, ``All right, fine. If you are not 
ramping up your military capability, you are going to start 
paying some of the bills for us to be here so that we can free 
up resources for other things'' just to be a little more 
creative and have them step up their contribution.
    General Breedlove. As you know, in limited ways that has 
already happened in a couple of places. And as I mentioned 
before, it is not perfect. We need more. But what we really 
see, especially in the Mediterranean nations, is the 
flexibility that they allow us to move forces around, 
especially to meet the threat in North Africa, is quite 
demonstrative.
    I asked someone once, ``Would you--what would happen if 
another nation asked to come into your state and on a routine 
basis move around large groups of foreign military and foreign 
aircraft, and sometimes do that on less than 48 hours' 
notice?'' And so I think we have to acknowledge that there are 
some sacrifices these nations are making.
    Ms. McSally. They get value out of it too.
    Thank you, Mr. Chairman.
    The Chairman. General, do you know off the top of your head 
how many permanent U.S. military installations we still have in 
Europe?
    General Breedlove. I do not. The number of new major 
installations is less than two dozen, but there are a lot of 
small ones.
    The Chairman. Yes. Okay. Thank you.
    One other question I want to ask you with your NATO hat on 
that has not been raised today is Turkey. You know, we read 
every day about the tensions related to this Syria situation 
especially, and so from a NATO perspective what is that 
relationship like with Turkey today as it integrates into the 
alliance?
    General Breedlove. So, Mr. Chairman, let me say 
unequivocally in a mil-to-mil environment, which is where I am 
most qualified, it is a strong and remaining strong 
relationship. Of course, the position of the military inside 
Turkey has changed over time, but our mil-to-mil relationship 
is strong.
    We don't always see perfectly eye to eye, but we have 
incredible cooperation and personal relationships. The chief of 
defense there, General Hulusi Akar, is not American-trained but 
he is Western-trained and he really understands the way we do 
business, and he has--he is a very much a cooperative partner.
    Turkey, as you know, Mr. Chairman, lives in a really tough 
neighborhood: to their south a civil war that is really going 
quite badly; to the north the Black Sea, which has become a 
bastion of Russian power--again, one of the three major A2AD 
nodes that we have talked about. And so Turkey is in a tough 
place and facing what they see are some tough problems around 
them.
    But let me assure you, I feel only qualified to speak to 
the mil-to-mil piece. We have a strong and continued 
relationship mil-to-mil with our ally Turkey.
    The Chairman. Well, we have seen in other cases where that 
continuation of a strong military relationship is really the 
bedrock as governments come and go that our relationships can 
often depend on, so I think that is a very important thing for 
us to keep in mind.
    General Breedlove. Nineteen major installations, Mr. 
Chairman.
    The Chairman. Thank you, sir, I appreciate that. I often 
get asked at home why don't we close some bases in Europe, and 
so that is--helps arm me with the facts.
    General, I have got to warn you that you have received lots 
of accolades today and people saying they are going to miss 
you. The problem is even this week we have had interactions 
with two former combatant commanders and picking their brain, 
so we don't usually let people get off too lightly or 
completely away from us. And we may see you again before the 
change of command, but thank you very much for being here today 
and for your insights.
    And with that, the hearing stands adjourned.
    [Whereupon, at 11:41 a.m., the committee was adjourned.]

     
=======================================================================


                            A P P E N D I X

                           February 25, 2016

=======================================================================

                PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 25, 2016

=======================================================================

      

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 25, 2016

=======================================================================

      

                   QUESTION SUBMITTED BY MR. SHUSTER

    Mr. Shuster. Do you believe we have enough Patriot battalions to 
support the continued mission of deterrence against Russia?
    General Breedlove. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. CONAWAY
    Mr. Conaway. Russia has greatly expanded its distribution of 
natural gas throughout Europe. This pattern appears to be part of a 
larger geo-political agenda in countries such as Syria and Ukraine, as 
witnessed by incursions into Crimea and elsewhere. Natural gas 
exportation significantly enhances Russia's ability to operate abroad, 
playing a significant component in an otherwise weakening economy. In 
view of increased use of Russian natural gas at regional energy 
facilities that supply heating to numerous U.S. military installations 
throughout Western Europe, is the expansion of Russian energy not a 
considerable risk factor?
    General Breedlove. Using natural gas from countries who rely on 
Russian supplies does pose a risk. While not ideal, the United States 
government is working with our European Allies and partners to 
determine ways to diversify their energy sources.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. CASTRO
    Mr. Castro. Has NATO discussed changes to Article 6 to include non-
conventional attacks such as a cyber attack?
    General Breedlove. Article 6 of the Washington Treaty relates 
generally to the location of an armed attack on a NATO member that 
could trigger the collective defense provisions of Article 5. While 
there have been many discussions relating to cyber attacks and Article 
5, we are unaware of any specific discussions on Article 6 changes.
    It is NATO's articulated policy, expressed in paragraph 72 of the 
Wales Action Plan (Sep. 5, 2014), that ``cyber defense is part of 
NATO's core task of collective defense.'' In general, NATO assets exist 
to protect NATO networks, and allies must protect their own national 
assets. As set forth in the ``Active Engagement, Modern Defence'' 
statement at NATO's Lisbon Summit in November 2010, cyber attacks ``can 
reach a threshold that threatens national and Euro-Atlantic prosperity, 
security and stability.'' As NATO Secretary General Rasmussen said in 
October 2010, there is a ``constructive ambiguity'' with regard to the 
use of Article 5 of the Washington Treaty, including in the case of 
cyber attacks. Such a decision would be taken by the North Atlantic 
Council on a case-by-case basis.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. HUNTER
    Mr. Hunter. Russia has greatly expanded its distribution of natural 
gas throughout Europe. This pattern appears to be part of a larger geo-
political agenda in countries such as Syria and Ukraine, as witnessed 
by incursions into Crimea and elsewhere. Natural gas exportation 
significantly enhances Russia's ability to operate abroad, playing a 
significant component in an otherwise weakening economy. In view of 
increased use of Russian natural gas at regional energy facilities that 
supply heating to numerous U.S. military installations throughout 
Western Europe, is the expansion of Russian energy not a considerable 
risk factor? The Army is about to construct a major new medical center 
at the Rhine Ordnance Barracks Installation in Germany, a facility to 
replace Landstuhl Regional Medical Center. This facility provides 
medical care for service personnel and their families in the European 
Theater from each branch of the military. There remains a possibility 
that Russian natural gas will be the exclusive energy source for heat 
at the facility. Would such an acquisition policy be counter-productive 
to NATO's efforts to address Russia's recent posturing?
    General Breedlove. No, we do not believe this acquisition policy is 
currently counter-productive to NATO's efforts. We recognize that in 
the long term overreliance on Russian natural gas could prove 
problematic. The United States government is working with our NATO 
Allies and partners on energy diversification efforts.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GIBSON
    Mr. Gibson. What is your assessment of the criticality of the 
Global Response Force? Also, what is your assessment of the level of 
risk of continuing the Army drawdown, and what it would mean in terms 
of buying down risk to station an Armored Brigade Combat Team and a 
Combat Aviation Brigade in Europe?
    General Breedlove. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. Can you describe the infrastructure and capabilities 
European Command (EUCOM) needs now in order achieve information and 
cyber dominance in a hybrid conflict?
    General Breedlove. A future conflict will be characterized by a 
combination of regular, irregular, and cyberspace-based warfare 
typically supported by an aggressive propaganda campaign. In order to 
achieve information dominance in such a conflict in its area of 
operations, EUCOM would need to be able to inform, persuade and 
influence both foreign decision makers and population groups. 
Specifically, it would require both the capacity and capabilities to 
conduct sustained ``influence operations.'' While EUCOM has some 
capacity and capability to conduct these kinds of ``influence 
operations,'' shortfalls exist that create risk to U.S. objectives in a 
hybrid conflict. Capacity could be achieved through an increase in the 
numbers of qualified analysts available to the command, both in reach 
back and at the headquarters, sub-unified command level (Special 
Operations Command Europe), and the component level (Army, Air Force, 
Navy, Marines). It is key to have qualified persons who can conduct the 
activities that lead to dominance, including Military Information 
Support Operations. We require new influence operations capabilities 
emphasizing research, analysis, and assessment, as well as the 
employment of social media. The capacity and capabilities we need are 
very difficult, if not impossible, to ``surge.'' Russia, as we know, is 
employing many resources in its influence operations in Eastern Europe. 
Accordingly, EUCOM believes that funding for influence operations 
should be increased and included in the Department's base budget.
    Mr. Scott. What are the current gaps in your intelligence, 
surveillance, and reconnaissance (ISR) capabilities with regard to your 
combatant command? How does the Joint Surveillance and Target Attack 
Radar System platform integrate into your current ISR network?
    General Breedlove. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. TAKAI
    Mr. Takai. You focused the majority of your testimony on explaining 
how Russia is our greatest threat. Though most focused on Europe and 
the Middle East, Russia is also engaged politically and militarily in 
the Indo-Asia-Pacific. Ships and submarines of the Russian Pacific 
Fleet and long range aircraft routinely demonstrate Russia's message 
that it is a Pacific power. America's future demands greater attention 
to the Asia-Pacific region. Russian ballistic missile and attack 
submarines remain especially active in the Asia-Pacific. The arrival in 
late 2015 of Russia's newest class of nuclear ballistic missile 
submarine (DOLGORUKIY SSBN) in the Far East is part of a modernization 
program for the Russian Pacific Fleet and signals the seriousness with 
which Moscow views this region. Your testimony highlighted the 
importance of maintaining relationships. I quote, ``You can't surge 
trust.'' The same could be said for relationships with our allies in 
the Asia-Pacific; the risks associated with major combat operations in 
the Asia-Pacific theater place a premium on preexisting command 
relationships.
    Don't you think the European Reassurance Initiative could do with 
less so that resources could be adequately distributed to the growing 
threat of Russia, and China, and North Korea, in the Asia-Pacific 
region?
    General Breedlove. The European Reassurance Initiative (ERI) is 
necessary to address the Russian threat to NATO Allies and other 
partners within the USEUCOM Area of Responsibility (AOR). With the FY17 
ERI budget request, we are consciously beginning to address the 
requirement to take prudent actions now (e.g., store prepositioned Army 
equipment, provide full-time Armored Brigade Combat Team (ABCT) 
presence, enhance exercises with Allies, etc.) that will aid in 
deterring future Russian aggression in Europe. I believe the scope of 
FY17 ERI is appropriate and necessary to meet the threat in Eruope, and 
it does not address the challenges in other theaters. However, I am 
also sensitive to the needs to address emerging requirements in other 
Combatant Command AORs as well given overall budget constraints.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
